DOE/IG-0430




         AUDIT
        REPORT

                                     PROJECT HANFORD
                                MANAGEMENT CONTRACT COSTS
                                     AND PERFORMANCE




                                           NOVEMBER 1998




   U.S. DEPARTMENT OF ENERGY
  OFFICE OF INSPECTOR GENERAL
    OFFICE OF AUDIT SERVICES
                                            November 5, 1998


MEMORANDUM FOR THE SECRETARY

FROM:                 Gregory H. Friedman
                      Inspector General

SUBJECT:              INFORMATION: Audit Report on "The U.S. Department of Energy's Project Han-
                      ford Management Contract Costs and Performance"

BACKGROUND

To offset the negative impact of downsizing its facilities, the Department of Energy (DOE) established a
commitment to economic stability. In its Fiscal Year (FY) 1997 Strategic Plan, DOE set a goal to help in-
dustry sustain long-term economic growth. That goal was to create 10,000 to 15,000 new jobs comparable
to or better in skill than the jobs being lost at DOE facilities.

RESULTS OF AUDIT

Consistent with the Strategic Plan, the Project Hanford Management Contract (Management Contract) es-
tablished a goal that Fluor Daniel Hanford, Inc. (Fluor Daniel) and its major subcontractors would help cre-
ate 3,000 new, non-Hanford, private sector jobs over a 5-year period that would help stabilize and diversify
the Tri-Cities' economy. Specifically, the Management Contract required that 200 jobs be created by the
end of the first year.
However, we found that most of the new jobs Fluor Daniel claimed it established during FY 1997 were not
comparable to Hanford Site jobs and did not help the Richland Operations Office (Richland) meet its com-
mitment for long-term, economic stability. We recommended that Richland establish Management Contract
performance expectations that define the quality of jobs promised by Fluor Daniel and desired by DOE.

MANAGEMENT REACTION

Management did not concur with our overall finding and recommendation.

Attachment

cc: Under Secretary
PROJECT HANFORD MANAGEMENT CONTRACT COSTS AND
PERFORMANCE

 TABLE OF
 CONTENTS



                Overview

                Project Hanford Management Contract Costs
                and Performance ............................................................ 1


                Job Creation


                Details of Finding............................................................ 3


                Recommendation and Comments................................... 6


                Appendices


                Scope and Methodology ................................................. 8


                Summary of Related Office of Inspector General
                Reports ........................................................................... 9
OVERVIEW
INTRODUCTION AND   On August 6, 1996, the Richland Operations Office (Richland) awarded
OBJECTIVE          the Project Hanford Management Contract (Management Contract) to
                   Fluor Daniel Hanford, Inc. (Fluor Daniel). This performance-based,
                   5-year contract to support cleanup of the Department of Energy's
                   (DOE) Hanford Site (Hanford) contained performance goals or
                   expectations related to the stabilization, transition, and diversification of
                   the Tri-Cities' economy near Hanford in southeastern Washington. One
                   of these economic goals was that Fluor Daniel and its major
                   subcontractors would help generate 3,000 new, non-Hanford, private
                   sector jobs that would help stabilize and diversify the Tri-Cities'
                   economy. The contract specifically called for Fluor Daniel to help
                   generate 200 jobs, establish an investment fund, and bring 6 new
                   growth-oriented "enterprise companies" to the Tri-Cities by the end of
                   Fiscal Year (FY) 1997. Although these companies began as corporate
                   affiliates of the prime and major subcontractors at Hanford, they were
                   expected to become independent, competitive companies that would
                   have enduring potential.

                   DOE's commitment to economic stability was echoed in various
                   documents. The premise of Fluor Daniel's FY 1997 Economic
                   Transition and Outsourcing Plan for Project Hanford, for example, was
                   to stabilize and diversify the local economy while a goal in DOE's FY
                   1997 Strategic Plan was to help industry sustain long-term economic
                   growth that creates high-wage jobs. In its FY 1998 Strategic Plan,
                   DOE set a target of 10,000 to 15,000 new jobs nationally by the end of
                   1999. According to an official in the Department’s Office of Worker
                   and Community Transition, DOE's intent is to establish jobs that are
                   comparable or better in skill to the DOE jobs being lost.

                   The objective of the audit was to determine whether Richland was
                   making adequate progress in stabilizing and diversifying the economy of
                   the Tri-Cities by creating 3,000 new, non-Hanford jobs within
                   5 years. Accordingly, we examined the progress made in FY 1997,
                   which was the first year of the Management Contract.




Page 1                                   Project Hanford Management Contract Costs
                                         and Performance
CONCLUSIONS AND   Richland and Fluor Daniel are at risk of not meeting the Management
OBSERVATIONS      Contract's goals of stabilizing and diversifying the economy of the
                  Tri-Cities because most of the new jobs created during FY 1997 were
                  not comparable to Hanford jobs and, thus, may not sustain long-term
                  economic goals. The new jobs, for example, did not have one or more
                  of the following characteristics: high skill, high pay, long-term
                  employment, and non-Hanford related. Therefore, Fluor Daniel has not
                  met its expectations in the first year and is not making adequate progress
                  toward meeting the Management Contract's overall economic goals.




                                                           (Signed)

                                                   Office of Inspector General




Page 2                                 Project Hanford Management Contract Costs
                                       and Performance
JOB CREATION
Desired Economic      Because of the diminishing Hanford workload, one goal common to the
Stability For The     1996 Management Contract, Fluor Daniel's FY 1997 Economic
Tri-Cities            Transition and Outsourcing Plan for Project Hanford, and DOE's FY
                      1997 Strategic Plan was to stabilize and diversify the economies of
                      impacted communities. This was to be done by creating new jobs that
                      were highly skilled, high paying, long-term, and unrelated to DOE's
                      mission. Consistent with this goal, Fluor Daniel committed to help
                      create 3,000 jobs in the Tri-Cities within 5 years. Specifically, the
                      contract had a performance measurement that stipulated that Fluor
                      Daniel would establish 200 new jobs in FY 1997.

                      Fluor Daniel claimed to have surpassed the FY 1997 performance
                      measurement by creating 271 new jobs. Richland concurred that Fluor
                      Daniel met the measurement but accepted only 201 jobs. The audit
                      showed, however, that only 61 of these 201 jobs were comparable to
                      ones that will be lost at Hanford. These 61 jobs included employment in
                      aluminum extrusion, engineering, waste management, and computer
                      services.

                      We questioned the remaining 140 non-Hanford jobs because they did
Approved Jobs That    not meet the economic stabilization goal established in the Management
Do Not Meet The       Contract and discussed in the FY 1997 Strategic Plan. Specifically, the
Management Contract   jobs were not comparable to those that currently exist at Hanford nor
Goal                  did they result in new, highly skilled, high paying, or long-term
                      employment. Further, some were not described in sufficient detail to
                      determine if they qualified as new jobs. For instance:

                      • 102 jobs involved telemarketing activities. Although the
                        telemarketing jobs were new, the jobs required semi-skilled labor
                        and paid about $21,000 per year. Conversely, the jobs lost at
                        Hanford typically were highly skilled and paid about $55,000 per
                        year. Thus, the new jobs were not comparable substitutes.

                      • 28 of the jobs were not adequately documented or described in
                        sufficient detail for us to determine if the jobs were new, highly
                        skilled, high paying, long-term, and non-Hanford related. Richland’s
                        only documentation for these positions consisted of one page,
                        written by the contractor, asserting it had established 28 jobs, and
                        brief notes from a telephone conversation. Earlier, Richland had
                        cited insufficient documentation as its reason for rejecting 73 other
                        new jobs claimed by Fluor Daniel.




Page 3                                                                    Details of Finding
               • 6 of the jobs directly relied on existing Hanford contractors. The six
                 jobs involved administering and managing an investment fund
                 required under the Management Contract. These jobs were
                 completely supported by fee awarded to the contractors and,
                 consequently, were dependent on the Hanford mission. We noted
                 that Richland had rejected jobs claimed by Fluor Daniel for a similar
                 reason; that is, the jobs directly related to the privatization of
                 Hanford work and were, therefore, related to the Hanford mission.

               • 4 other jobs were not new jobs. These jobs competed directly with
                 jobs that already existed in the Tri-Cities. Thus, the jobs did not
                 stabilize and diversify the economy.

               Richland's management disagreed with some of our conclusions. For
               example, Richland stated that the 28 jobs we questioned as inadequately
               documented had met the performance expectation. However, Richland
               could not provide any additional supporting documentation. When we
               asked the contractor for further support, a corporate official told us that
               there was no requirement in the contract to provide any additional
               details. The documentation available to us simply did not provide
               meaningful data about the jobs in question. Also, management noted
               that the 6 jobs questioned in the report as relying on Hanford
               contractors, had lasted 18 months and pointed out that "even if these
               jobs are eliminated at or before the end of the contract, they will have
               met our criteria for creating jobs that have 'enduring potential'." We do
               not agree with management's view that these jobs, which depend on the
               Hanford mission and which may be eliminated at the end of the contract,
               represent jobs with enduring potential. Finally, management felt that the
               qualitative criteria used to discount four jobs were arbitrary. Qualitative
               criteria, however, are essential aspects of performance measures.

               Recent publications including the 1994 report, Making Contracting
               Work Better and Cost Less and DOE's June 1996, Guidelines for
               Performance Measurement have pointed out the importance of
Job-Related    preparing effective performance measures. DOE guidance, for example,
Performance    states that performance measures should clearly state what is expected
Measures Not   from the contractor and contain performance characteristics that are
Specific       measurable against the expectation. Acquisition Letter 98-08 provides
               further guidance and states that performance incentives should contain
               both qualitative and quantitative performance requirements.




Page 4                                                               Details of Finding
            Although the FY 1997 performance measure contained a quantitative
            stipulation of 200 jobs by the end of FY 1997, it lacked necessary
            qualitative characteristics. That is, the performance measure described
            the jobs as "new" and "non-Hanford," but did not include important
            qualitative characteristics, such as skill or pay level. Qualitative
            characteristics were not established because Richland wanted to allow
            Fluor Daniel maximum flexibility and creativity in developing its
            economic transition program. Since these qualitative characteristics
            were omitted, Richland accepted jobs that did not meet the Management
            Contract's goal of stabilizing and diversifying the economy. In addition,
            the jobs did not meet Richland's goal that the jobs be comparable in skill
            and pay to those jobs previously held by displaced workers.

            If outcomes continue to fall short of expectations, Richland may not
            succeed in making its desired contribution to the stabilization and
            diversification of the Tri-Cities economy. For example, a Pacific
            Northwest National Laboratory's economics expert estimated that the
            $55,000 average salary earned by a Hanford employee is ultimately
Local       worth about $116,000 annually to the local economy. When this data is
Community   applied to the 3,000 new, non-Hanford jobs that Fluor Daniel is
Losses      expected to create, they are potentially worth about $347 million per
            year. However, if new jobs are created at a significantly lower average
            salary, the local economy may not receive the same benefit.

            Not only may the local economy suffer, but Richland may not achieve
            the results it desired through the payment of additional fees. During
            contract negotiations, Richland questioned Fluor Daniel's proposed fee
            because it was considerably more than the fee under the previous
            contract. Fluor Daniel partially justified its requested performance fee
            by stating that a substantial portion would be invested to support the
            Tri-Cities' economic transition. After the Management Contract was
            awarded, Fluor Daniel argued that it needed additional fee for its
            enterprise companies to support the effort to "preserve and grow local
            jobs." Richland concurred and began negotiating supplemental fee rates
            for each enterprise company. Richland estimated these fees will cost up
            to an additional $15.4 million for FY 1997 to achieve the performance
            goal related to economic transition. In our opinion, however, Fluor
            Daniel has not made adequate progress in achieving the Management
            Contract's economic expectations envisioned by DOE.




Page 5                                                           Details of Finding
         these guidelines. Further, if it were not the intent of the Management
         Contract to achieve this result, we questioned why it was necessary to
         significantly increase the fee that could be earned by Fluor Daniel and its
         subcontractors.




Page 7                                    Recommendation and Comments
                   performance goal related to economic transition. In our opinion,
                   however, Fluor Daniel has not made adequate progress in achieving the
                   Management Contract’s economic expectations envisioned by DOE.

                   We recommend the Manager, Richland Operations Office, establish
RECOMMENDATION     Management Contract performance expectations that clearly and
                   completely define the quality of jobs desired by DOE.

                   Richland did not concur in the finding, conclusions, or recommendation
MANAGEMENT
                   made in the report. Management said that Fluor Daniel was making
REACTION
                   adequate progress toward meeting its commitment to help create 3,000
                   jobs over the next 5 years. Further, management stated that the report
                   appeared to be based on the erroneous assumption that jobs created
                   must be "comparable to ones that currently exist at Hanford." In
                   support of its position, management pointed to the Request for Proposal
                   for the Management Contract and said that it did not contain criteria
                   applicable to the quality or wage level for new jobs. Indeed, Fluor
                   Daniel did not commit to help create jobs at any minimum wage or skill
                   level. Richland "did not feel that it would be appropriate or
                   advantageous to require the contractor to help create jobs that would be
                   equivalent to Hanford jobs" because it would not be "advantageous to
                   this community to perpetuate artificially high salaries where it is not
                   appropriate." Richland also pointed out that the DOE strategic goal to
                   help industry sustain long-term economic growth that creates high wage
                   jobs is more appropriately associated with the transfer of technology
                   under DOE's science and technology activities.

                   The report is based on a careful analysis of the Management Contract
AUDITOR COMMENTS   and other documents that provide content and criteria necessary to
                   understand the Department’s economic goals for the area. The other
                   documents included Fluor Daniel’s proposal, the Hanford Strategic
                   Plan, the Department’s Strategic Plan, and Fluor Daniel’s FY 1997
                   Economic Transition and Outsourcing Plan for Project Hanford.
                   Reasonable readers of these documents will conclude that the
                   Department’s intent was to replace Hanford jobs with jobs of
                   comparable skill and wage levels. For example, a goal cited in the
                   Department’s Strategic Plan, and echoed in the Hanford Strategic Plan,
                   is to aid employees and communities faced with workforce reductions by
                   creating new, local community jobs that are comparable in skill and
                   wage levels to jobs that are lost. The Management Contract
                   incorporates the goals of both strategic plans by reference. Richland’s
                   position that the focus of creating new jobs should be on quantity, not
                   quality, is inconsistent with the Departmental philosophy articulated in
                   these guidelines. Further, if it were not the intent of the Management

Page 6                                             Recommendation and Comments
Appendix 1
SCOPE         The audit was performed from June 10, 1997 through June 9, 1998, at
              Richland, Fluor Daniel, and its subcontractors. We examined DOE's
              performance expectations and accomplishments in FY 1997, the first
              year of the contract. Specifically, we focused on compliance with
              expectations that (1) contained specific incentives and (2) Richland had
              approved as "successfully completed" by the end of our fieldwork.

METHODOLOGY   We accomplished the audit objective by reviewing DOE guidance, the
              Management Contract, Strategic Plans for FY 1997 and 1998, economic
              transition performance measures and expectations, and documentation
              pertaining to non-Hanford job creation claimed by Fluor Daniel. We
              also interviewed personnel from Headquarters, Richland, contractor
              management, and local private businesses that competed for DOE
              work.

              The audit was conducted in accordance with generally accepted
              Government Auditing Standards for performance audits, which included
              tests of internal controls and compliance with laws and regulations to the
              extent necessary to satisfy the audit objective. Internal controls were
              assessed with respect to established performance measures. Because the
              review was limited, it would not necessarily have disclosed all internal
              control deficiencies that may have existed at the time of our audit. We
              did not rely on computer generated data during the audit.

              An exit conference was held with Richland management officials on
              August 12, 1998.




Page 8                                                     Scope and Methodology
Appendix 2

          SUMMARY OF RELATED OFFICE OF INSPECTOR GENERAL REPORTS

         Although the following reports do not relate to generating jobs, they do relate to the
         establishment of goals and expectations under a performance based contract.

         • Inspection of the Performance Based Incentive Program at the Richland
           Operations Office, Office of Inspector General Report Number DOE/IG-0401,
           dated March 1997. The report showed that Richland did not always make the best
           use of the incentive fees paid to the management and operating contractor.

         • Audit of Environmental Restoration at the Los Alamos National Laboratory,
           Office of Inspector General Report Number DOE/IG-0410, dated July 1997. The
           report showed that the performance criteria used to evaluate cost effectiveness of
           remediating contaminated sites were not always reasonable, measurable, and
           complete.

         • Audit of the Contractor Incentive Programs at the Rocky Flats Environmental
           Technology Site, Office of Inspector General Report Number DOE/IG-0411, dated
           August 1997. The report showed that performance measures did not always
           include clearly defined criteria, were not structured to encourage and reward
           superior performance, and were often not results-oriented.

         • Audit of the Contractor Incentive Program at the Nevada Operations Office,
           Office of Inspector General Report Number DOE/IG-0412, dated October 1997.
           The report showed that many performance measures were vague and non-specific
           and, as a result, Nevada rewarded performance that could not be objectively
           validated.

         • The Cost Reduction Incentive Program at the Savannah River Site, Office of
           Inspector General Report Number ER-B-98-08, dated May 1998. The report
           showed that cost proposals were not innovative and that the Savannah River
           Operations Office continued to provide incentive awards for non-innovative
           proposals.




Page 9                                                    Related Office of Inspector General Reports
                                                                            Report No. DOE/IG-0430


                                 CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its products.
We wish to make our reports as responsive as possible to our customers' requirements, and, therefore,
ask that you consider sharing your thoughts with us. On the back of this form, you may suggest
improvements to enhance the effectiveness of future reports. Please include answers to the following
questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures
   of the audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included
   in this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message
   more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed
   in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any
questions about your comments.

Name____________________________________Date_________________________________

Telephone________________________________Organization___________________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

               Office of Inspector General (IG-1)
               U.S. Department of Energy
               Washington, D.C. 20585
               ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector
General, please contact Wilma Slaughter at (202) 586-1924.
 The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
   effective as possible. Therefore, this report will be available electronically through the Internet at the
                                        following alternative address:


               U.S. Department of Energy Human Resources and Administration Home Page
                                       http://www.hr.doe.gov/ig

Your comments would be appreciated and can be provided on the Customer Response Form
attached to the report.

                                    This report can be obtained from the
                                        U.S. Department of Energy
                               Office of Scientific and Technical Information
                                                P.O. Box 62
                                       Oak Ridge, Tennessee 37831
